PROOF OF SERVICE
I, the undersigned, declare that I am employed in the city of Los Angeles,
California. I am over the age of eighteen (18) years and I am not a party to the
within action.
On February 11th, 20211 served the following document:
PETITION FOR WRIT OF MANDAMUS AND PETITION FOR WRIT OF
CERTIORARI AND PETITIONERS’ APPENDIX TO THE UNITED STATES
SUPREME COURT
[X ] BY MATT,-1 placed each such sealed envelope, with postage thereon fully
prepaid for first class mail, for collection and mailing at Los Angeles, California,
following ordinary business practices.
SEE SERVICE LIST
[X ] STATE-FED I declare under the penalty of perjury under the laws of the
State of California and of the United States of America that the foregoing is true
and correct.
I declare under penalty of perjury under the laws of the State of California
and the United States of America the foregoing is true and correct.

DATED*

Sta:

e

ary 11th,2021

Lei - Declarant

40

SERVICE LIST
FELTON T. NEWELL
10250 CONSTELLATION BLVD., 19th FLOOR
LOS ANGELES, CA 90067
ATTORNEY FOR
KIMBERLY MARTIN BRAGG (AKA) KIMBERLY BARBOUR
CALIFORNIA SUPREME COURT
350 MCALLISTER STREET
ROOM 1295
SAN FRANCISCO, CA 94102-4797
CALIFORNIA COURT OF APPEAL SECOND DISTRICT
RONALD REAGAN STATE BUILDING,
300 S SPRING ST B-228,
LOS ANGELES, CA 90013
LOS ANGELES SUPERIOR COURT
111 NORTH HILL STREET
LOS ANGELES CALIFORNIA 90012
LEGAL DEPARTMENT OF THE LOS ANGELES SUPERIOR COURT
ATTN: FRED BENNETT
LOS ANGELES SUPERIOR COURT
DEPARTMENT
(56)
111 NORTH HILL STREET
LOS ANGELES CALIFORNIA 90012

41

Additional material
from this filing is
available in the
Clerk's Office.

